Nos. 20-429, 20-454, 20-539

 

 

IN THE

Supreme Court of the United States

AMERICAN MEDICAL ASSOCIATION, et al.,
Petitioners,
v.
NORRIS COCHRAN, ACTING SECRETARY OF HEALTH AND HUMAN SERVICES et al.,
Respondents.

OREGON, et al.,
Petitioners,
Vv.
Norris COCHRAN, ACTING SECRETARY OF HEALTH AND HUMAN SERVICES et al.,
Respondents.

NorrIS COCHRAN, ACTING SECRETARY OF HEALTH AND HUMAN SERVICES et al.,
Petitioners,
Vv.
MAYOR AND CITY COUNCIL OF BALTIMORE,
Respondents.

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that all parties required to be served, have been served, on this 12" day
of March, 2021, in accordance with U.S. Supreme Court Rule 29.3, three (3) copies of the
foregoing MOTION OF THE AMERICAN ASSOCIATION OF PRO-LIFE
OBSTETRICIANS & GYNECOLOGISTS ET AL. TO INTERVENE OR TO PRESENT
ORAL ARGUMENT AS AMICI CURIAE by placing said copies in the FEDERAL EXPRESS,
PRIORITY OVERNIGHT, postage prepaid, addressed as attached.

 

 

RAYMOND CHARLES CLARK

BypOn S. ADAMS, LEGAL & COMMERCIAL PRINTERS
1615 L Street, NW, Suite 100

Washington, DC 20036

(202) 347-8203

District of Columbia

Signed and sworn to (or affirmed) before me on 12" day of March, 2021.

: Ll J
Cc po
N PIERANGELI

NOTARY PUBLIC, DISTRICT OF COLUMBIA
My Commission Expires June 14, 2025.

 

 

 

 

 
Paul Reinherz Quitman Wolfson
Wilmer Cutler Pickering

Hale and Dorr LLP
1875 Pennsylvania Avenue, NW
Washington, DC 20006
paul.wolfson@wilmerhale.com

Elizabeth B. Prelogar
Acting Solicitor General

of the United States
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
SupremeCtBriefs@USDOJ.gov

Barbara Dale Underwood
Solicitor General

Office of the Attorney General
28 Liberty Street

New York, NY 10005
Barbara.underwood@ag.ny.gov

Andrew Timothy Tutt

Arnold & Porter Kaye Scholer LLP
601 Massachusetts Avenue, NW
Washington, DC 20001
andrew.tutt@arnoldporter.com

Benjamin M. Floweres

Ohio Solicitor General

30 E. Broad Street

17° Floor

Columbus, OH 43215
bflowers@ohioattorneygeneral.gov

 
